<html>
<title> - COMPREHENSIVE SAFETY ANALYSIS: 2010 UNDERSTANDING FMCSA'S NEW SYSTEM OF MOTOR CARRIER OVERSIGHT</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





COMPREHENSIVE SAFETY ANALYSIS 2010: UNDERSTANDING FMCSA'S NEW SYSTEM OF 
                        MOTOR CARRIER OVERSIGHT

=======================================================================

                               (111-123)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                          HIGHWAYS AND TRANSIT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             June 23, 2010

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure





                  U.S. GOVERNMENT PRINTING OFFICE
57-103 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001










             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
LEONARD L. BOSWELL, Iowa             TODD RUSSELL PLATTS, Pennsylvania
TIM HOLDEN, Pennsylvania             SAM GRAVES, Missouri
BRIAN BAIRD, Washington              BILL SHUSTER, Pennsylvania
RICK LARSEN, Washington              JOHN BOOZMAN, Arkansas
MICHAEL E. CAPUANO, Massachusetts    SHELLEY MOORE CAPITO, West 
TIMOTHY H. BISHOP, New York          Virginia
MICHAEL H. MICHAUD, Maine            JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          JEAN SCHMIDT, Ohio
TIMOTHY J. WALZ, Minnesota           CANDICE S. MILLER, Michigan
HEATH SHULER, North Carolina         MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          VERN BUCHANAN, Florida
HARRY E. MITCHELL, Arizona           BRETT GUTHRIE, Kentucky
CHRISTOPHER P. CARNEY, Pennsylvania  ANH ``JOSEPH'' CAO, Louisiana
JOHN J. HALL, New York               AARON SCHOCK, Illinois
STEVE KAGEN, Wisconsin               PETE OLSON, Texas
STEVE COHEN, Tennessee               TOM GRAVES, Georgia
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico
JOHN GARAMENDI, California
HANK JOHNSON, Georgia

                                  (ii)















                  SUBCOMMITTEE ON HIGHWAYS AND TRANSIT

                   PETER A. DeFAZIO, Oregon, Chairman

NICK J. RAHALL II, West Virginia     JOHN J. DUNCAN, Jr., Tennessee
JERROLD NADLER, New York             DON YOUNG, Alaska
BOB FILNER, California               THOMAS E. PETRI, Wisconsin
TIM HOLDEN, Pennsylvania             HOWARD COBLE, North Carolina
BRIAN BAIRD, Washington              JERRY MORAN, Kansas
MICHAEL E. CAPUANO, Massachusetts    GARY G. MILLER, California
TIMOTHY H. BISHOP, New York          HENRY E. BROWN, Jr., South 
MICHAEL H. MICHAUD, Maine            Carolina
BRIAN HIGGINS, New York              TIMOTHY V. JOHNSON, Illinois
GRACE F. NAPOLITANO, California      TODD RUSSELL PLATTS, Pennsylvania
DANIEL LIPINSKI, Illinois            BILL SHUSTER, Pennsylvania
MAZIE K. HIRONO, Hawaii              JOHN BOOZMAN, Arkansas
JASON ALTMIRE, Pennsylvania          SHELLEY MOORE CAPITO, West 
TIMOTHY J. WALZ, Minnesota           Virginia
HEATH SHULER, North Carolina         JIM GERLACH, Pennsylvania
MICHAEL A ARCURI, New York           MARIO DIAZ-BALART, Florida
HARRY E. MITCHELL, Arizona           CHARLES W. DENT, Pennsylvania
CHRISTOPHER P. CARNEY, Pennsylvania  CONNIE MACK, Florida
STEVE COHEN, Tennessee               JEAN SCHMIDT, Ohio
LAURA A. RICHARDSON, California      CANDICE S. MILLER, Michigan
ALBIO SIRES, New Jersey              MARY FALLIN, Oklahoma
DONNA F. EDWARDS, Maryland           VERN BUCHANAN, Florida
GENE TAYLOR, Mississippi             AARON SCHOCK, Illinois
LEONARD L. BOSWELL, Iowa             TOM GRAVES, Georgia
RICK LARSEN, Washington
JOHN J. HALL, New York
STEVE KAGEN, Wisconsin
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan, West 
Virginia, Vice Chair
BETSY MARKEY, Colorado
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)













                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Ferro, Anne, Administrator, Federal Motor Carrier Safety 
  Administration.................................................     2
Keppler, Steve, Interim Executive Director, Commercial Vehicle 
  Safety Alliance................................................     2
Klein, Keith, Executive Vice President and Chief Operating 
  Officer, Transport Corporation of America......................     2
Spencer, Todd, Executive Vice President, Owner-Operator 
  Independent Drivers Association................................     2

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

DeFazio, Hon. Peter A., of Oregon................................    33
Mitchell, Hon. Harry E., of Arizona..............................    34
Oberstar, Hon. James L., of Minnesota............................    35
Richardson, Hon. Laura, of California............................    39

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Ferro, Anne......................................................    42
Keppler, Steve...................................................    71
Klein, Keith.....................................................    94
Spencer, Todd....................................................   113

                       SUBMISSIONS FOR THE RECORD

Ferro, Anne, Administrator, Federal Motor Carrier Safety 
  Administration:................................................
      Response to request for information from the Committee.....    53
      Slide entitled, ``Current Measurement System vs. New''.....    12
Keppler, Steve, Interim Executive Director, Commercial Vehicle 
  Safety Alliance, response to request for information from the 
  Committee......................................................    84
Klein, Keith, Executive Vice President and Chief Operating 
  Officer, Transport Corporation of America, response to request 
  for information from the Committee.............................   105
Spencer, Todd, Executive Vice President, Owner-Operator 
  Independent Drivers Association, response to request for 
  information from the Committee.................................   119

                        ADDITIONS TO THE RECORD

Heavy Vehicle Electronic License Plate, Incorporated, Richard P. 
  Landis, President and Cheif Executive Officer, written 
  statement for the record.......................................   124



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
COMPREHENSIVE SAFETY ANALYSIS: 2010 UNDERSTANDING FMCSA'S NEW SYSTEM OF 
                        MOTOR CARRIER OVERSIGHT

                              ----------                              


                        Wednesday, June 23, 2010

                  House of Representatives,
              Subcommittee on Highways and Transit,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:03 a.m., in 
room 2167, Rayburn House Office Building, Hon. Peter A. DeFazio 
[Chairman of the Subcommittee] presiding.
    Mr. DeFazio. The Subcommittee will come to order.
    This hearing is on a subject which is very important, an 
evolutionary change for the better, I believe, in how the 
Federal Motor Carrier Safety Administration does oversight of 
motor carriers. I and other Members of the Committee have been 
concerned, for years, over the understaffing at FMCSA, the 
small percentage of vehicles that are inspected on an annual 
basis and how that relates to other problems that are out 
there. In my opinion this new regime has promise. I think there 
are a number of legitimate concerns about the timeline for 
implementation and specific aspects of it which will come out 
during the hearing, so I look forward to the testimony.
    With that, I would turn to the Ranking Member, Mr. Duncan.
    Mr. Duncan. Well, thank you, Mr. Chairman, for holding this 
hearing on the Comprehensive Safety Analysis 2010, or the new 
plan by the Federal Motor Carrier Safety Administration.
    It is a top priority of this Committee and all of us to try 
to do everything possible to improve highway safety, and to 
improve it for everyone, not just drivers of passenger 
vehicles, but also for drivers of commercial motor vehicles. 
The Federal Motor Carrier Safety Administration is charged with 
regulating the safety of all trucks and buses involved in 
interstate commerce, and there are nearly 750,000 companies 
registered with this agency.
    In 2008, trucks traveled more than 225 billion miles and 
transported more than 13 billion tons of goods. In that same 
year, the number of fatalities and injuries from crashes 
involving large trucks fell to 4,229 fatalities and 90,000 
injuries, their lowest level since the Department of 
Transportation began keeping statistics. And while it is good 
to see that progress, we still need to do as much as possible 
to keep trying to bring those numbers down.
    The agency has proposed a new enforcement and compliance 
model, as I mentioned, the CSA 2010, to further reduce 
commercial vehicle crashes, fatalities, and injuries on our 
Nation's highways. This new program is designed to allow FMCSA, 
together with its State partners, to target unsafe truck 
companies and focus limited resources on specific areas of 
deficiency. This efficient use of resources should maximize 
Federal and State enforcement efforts to reduce commercial 
vehicle fatality rates. While this objective is laudable, there 
are concerns about how this new model will be implemented. We 
will hear some of these concerns from our witnesses today.
    Our panel of witnesses represents the parties responsible 
for implementing this new program, as well as the industry that 
will be impacted by it, and I appreciate the witnesses taking 
time out from their busy schedules to come be with us today and 
I look forward to their testimony. Thank you very much.
    Mr. DeFazio. I thank the gentleman. With that, we will 
proceed to testimony.

 TESTIMONY OF ANNE FERRO, ADMINISTRATOR, FEDERAL MOTOR CARRIER 
    SAFETY ADMINISTRATION; STEVE KEPPLER, INTERIM EXECUTIVE 
  DIRECTOR, COMMERCIAL VEHICLE SAFETY ALLIANCE; KEITH KLEIN, 
EXECUTIVE VICE PRESIDENT AND CHIEF OPERATING OFFICER, TRANSPORT 
   CORPORATION OF AMERICA; AND TODD SPENCER, EXECUTIVE VICE 
   PRESIDENT, OWNER-OPERATOR INDEPENDENT DRIVERS ASSOCIATION

    Mr. DeFazio. Administrator Ferro, I appreciate your sitting 
on the panel. We have some administrators who are a little 
uptight about sitting on a panel with other folks; but since 
you are involved with, working with, and regulating some of 
their members, I think it is very appropriate. But we would 
also grant you a bit more time, if necessary, to summarize your 
remarks, and then we will hear from the others, before moving 
to questions. So I would recognize you first.
    Ms. Ferro. Thank you, Mr. Chairman and Ranking Member 
Duncan, and Members of the Subcommittee. I really do appreciate 
the opportunity to be here today, and I am always pleased to be 
part of a panel, particularly a panel of stakeholders and 
partners.
    CSA 2010, as both of you mentioned in your opening 
statements, is a performance-based, data-driven approach for 
the FMCSA to carry out its mission to significantly reduce 
severe and fatal crashes involving large trucks and buses. It 
upholds our mandate to place safety as our highest priority by 
strengthening how FMCSA determines motor carrier fitness, and 
how we target our enforcement efforts against those operating 
unsafely. The program was developed over 6 years through the 
hard work of our employees and input from many stakeholders, 
particularly those at the table here today.
    The program rests on three core components: a system, 
process, and rule. The Carrier Safety Measurement System, or 
CSMS, will replace the current system, SafeStat. Through the 
use of all safety violation data, weighted by crash risk, CSMS 
will give our investigators a more robust tool to use in 
identifying high-risk carriers for review. It will also be the 
basis for the selection system roadside enforcement officers 
use to focus their roadside inspections.
    With regard to process, CSA 2010 introduces a new strategy 
known as interventions, and it frames it at four levels: The 
comprehensive onsite, much like today's compliance review, 
focused onsite, offsite, and warning letters. Through a mix of 
these interventions, combined with roadside activity, we will 
increase the number of carriers we touch, and catch unsafe 
behaviors before they lead to a crash. And, finally, to reach 
its maximum effect, CSA 2010 will rest on a rule commonly 
referred to as the Safety Fitness Determination Rule. This rule 
will decouple the carrier safety rating from today's onsite 
compliance review. The rule will enable FMCSA to propose 
carrier safety ratings through the carrier safety measurement 
system, thereby increasing the number of carriers we rate 
annually tenfold. The NPRM for this rule is expected in early 
2011.
    This month, the agency completes a 2-1/2-year, nine State 
field test of the program. Preliminary findings show that we 
achieved a 35 percent increase in investigations using this 
approach. In other words, we not only reached more carriers, 
but we did so with greater efficiency. And we have anecdotal 
evidence of carriers who examined and changed their practices 
as a result of a CSA 2010 contact and improved their safety, 
further confirming the old adage that, what gets measured gets 
done.
    The rollout for CSA 2010 officially began in April of this 
year with the launch of the data preview for all carriers. The 
actual safety measurement system will be previewed in late 
August, followed by full view to the public at the end of the 
year. The remaining components of the program, warning letters, 
NPRM, intervention process, and more, will continue throughout 
the year through the end of fiscal year 2011. By that time, the 
program will be known only by its initials, CSA, or Compliance, 
Safety, and Accountability.
    Mr. Chairman, thank you again for the opportunity to 
discuss this important program today. It is a huge step forward 
in this agency's work to save lives through early intervention, 
compliance, and crash reduction. And with that, I conclude my 
remarks, and I will be pleased to answer any questions.
    Mr. DeFazio. Mr. Keppler.
    Mr. Keppler. Mr. Chairman, Members of the Subcommittee, 
thank you for holding this important hearing and for inviting 
CVSA to testify. I am Steve Keppler, interim executive director 
of CVSA.
    CVSA commends FMCSA for planning, developing, and testing 
CSA 2010. It is the boldest step taken by the agency since its 
creation in 2000. We believe it will result in a more efficient 
and effective use of Federal and State enforcement resources, 
while at the same time, allowing us to monitor and affect the 
safety performance of more carriers than we do today. CSA 2010 
will proactively target compliance and enforcement activities 
based upon performance data and crash risk. In addition, it 
will provide transparent performance data to the industry and 
others in the safety accountability chain in terms of how, 
when, and where they can access performance data which, 
hopefully, will result in carriers proactively identifying and 
addressing safety problems before they occur. As a result, CVSA 
expects CSA 2010 to provide measurable reductions in crashes, 
injuries, and deaths.
    CSA 2010 is a significant step in our march towards zero 
deaths on our roadways. In my written testimony, I have 
outlined a number of reasons why we believe this to be the 
case. From a State enforcement perspective, CVSA believes CSA 
2010 can be improved by, one, providing additional resources to 
the States to cover the costs of implementing the program to 
include items such as training, workforce adjustments, 
information system upgrades, managing data challenges and 
adjudication, CVSP and grant-related changes and outreach to 
the industry.
    Just as FMCSA has implementation costs, so do the States. 
Ensuring a through implementation process, FMCSA is sensitive 
to State needs--all States, not just the pilot States--with 
respect to the above items as well as any needed legislative, 
policy, or regulatory changes. Some States can do this fairly 
expeditiously through the administrative process, but others 
have more significant obstacles that will require more time. 
Again, in my written testimony, I have outlined a number of 
other recommendations and suggestions with respect to the 
States.
    In summary, CSA 2010 will be successful if, and only if, it 
is a partnership effort between FMCSA, the States, and 
industry. We believe FMCSA is working hard in this regard to 
listen to us, and we appreciate their willingness to work with 
us and our members on these issues. We certainly hope and 
expect that this will continue.
    This concludes my remarks, Mr. Chairman. More details have 
been provided in my written statement. Thank you again for the 
opportunity to be here and participate in this hearing. We 
remain optimistic CSA 2010 will have a tremendous impact on 
driver, vehicle, and motor carrier safety into the future. I am 
happy to answer any questions at this time.
    Mr. DeFazio. Thank you. Mr. Klein.
    Mr. Klein. Chairman DeFazio, Representative Duncan, Members 
of the Subcommittee, my name is Keith Klein, and I am executive 
vice president and chief operating officer of Transport 
America. Today I will testify on behalf of the American 
Trucking Associations, or the ATA.
    Mr. Chairman, as you likely know, ATA is a strong advocate 
of highway safety. In 2008, the most recent year reported, the 
truck-involved fatality and injury rates fell to their lowest 
level since USDOT began keeping statistics. Today I will speak 
about our support for CSA 2010, some of the ATA's substantive 
concerns with CSA 2010, and how these flaws will profoundly 
impact the industry and highway safety if not corrected.
    ATA supports CSA 2010 since it is based on safety 
performance, not paperwork requirements, it focuses limited 
enforcement resources on specific areas of deficiency, and it 
will eventually provide real-time updated safety performance 
measurements. However, ATA has a number of serious concerns 
with how CSA 2010 will work that, if not addressed, will have a 
dramatic impact on motor carriers and on highway safety.
    Our principle intent in raising these concerns is to ensure 
that unsafe carriers are properly identified and selected for 
interventions. We are particularly concerned with the following 
three issues:
    First, CSA 2010 considers all crashes, including those for 
which the motor carrier could not reasonably be held 
accountable. Hence, a carrier involved in a number of crashes 
for which it is not responsible is seen as just as unsafe as a 
like-sized carrier who is involved in the same number of 
crashes but caused them.
    I would like to show you a brief video clip which 
illustrates the problem. If you notice, on the right-hand side, 
as the truck comes across, you have got to watch the car that 
is right to the right of the truck.
    [video was played.]
    Mr. Klein. Obviously, in this instance, neither the 
trucking company nor the driver were responsible for the crash; 
however, CSA 2010 counts this crash in measuring the company's 
safety performance the same as it would if the company had 
caused the crash. FMCSA has signaled its intention to 
eventually consider only those crashes for which the motor 
carrier could reasonably be held accountable; however, it 
appears this change will not be made before the initial 
implementation date just a few months from now.
    Our second major concern is that CSA 2010 measures carrier 
risk exposure by using a count of each carrier's trucks rather 
than the total number of miles that the vehicle has traveled. 
As a result, carriers who employ greater asset utilization will 
have more true exposure to crashes and other safety related 
events, but will be compared to carriers who have less exposure 
though the same number of trucks. FMCSA has acknowledged that 
this approach can create an inequity for some motor carriers 
and seems willing to consider mileage data at least in part as 
an exposure measure. However, the agency has not yet published 
a revised exposure formula.
    Our third major concern is that CSA 2010 counts both 
citations and warnings for moving violations and assigns them 
the same weight. This presents several problems. First, since 
these are merely warnings, there is no due process procedure 
for carriers or drivers to challenge the alleged violations. 
Regardless of their validity, they stay on the carrier's record 
and are used to measure the carrier's related safety 
performance.
    Second, in some States, law enforcement officers must have 
probable cause in order to stop a truck and conduct a vehicle 
inspection. In these States, we believe it is common for 
enforcement officials to stop trucks for trifling offenses and 
issue warnings as justification to conduct inspections. As a 
result, carriers operating in these States are 
disproportionately impacted and likely have worse driver 
violation scores.
    While these three issues reflect our primary concerns with 
the CSA 2010 methodology, we have other concerns as well. ATA 
respects that no system will be perfect; however, these 
systemic flaws will have a pronounced impact on the motor 
carriers and highway safety.
    Again, ATA supports the objectives of CSA 2010, but any 
system that is based on evaluating motor carrier safety 
comparatively must be grounded in sound data, sound math, and 
consistent measurements to be both equitable and effective. In 
short, there is a fundamental difference between using 
inconsistent data and an imperfect methodology for enforcement 
workload prioritization and publicly displaying the results of 
the imperfect system to leverage additional scrutiny and 
economic consequences.
    Thank you for the opportunity to testify on this important 
issue.
    Mr. DeFazio. Thank you. Mr. Spencer.
    Mr. Spencer. Good morning, Chairman DeFazio, Ranking Member 
Duncan, and distinguished Members of the Subcommittee. My name 
is Todd Spencer, and I have been involved with the trucking 
industry for more than 30 years, first as a driver and an 
owner-operator. I currently serve as the executive vice 
president of the Owner-Operator Independent Drivers 
Association, representing the interests of small business 
truckers and professional drivers.
    OOIDA believes that the CSA 2010 initiative has the 
potential to be a major step in the right direction for FMCSA's 
safety and enforcement efforts. For far too long, FMCSA's 
enforcement priorities focused almost exclusively on targeting 
truck drivers and really didn't go much farther at all. This 
has been an upside down effort of drivers being held 
responsible for just about anything and everything related to 
trucking, a particularly absurd notion considering that drivers 
are not required to be trained on the vast majority of operator 
and equipment regulations for which they are being held 
responsible.
    Drivers often are not the principle decision makers in the 
movement of goods. The idea of shared responsibility for safety 
represents a more accurate reflection of how the industry 
should function. While motor carriers are subject to tremendous 
pressures to meet unrealistic demands from the shipping 
community, they are in a far better position to control factors 
that may result in regulatory noncompliance than are truck 
drivers.
    We have heard all the horror stories about CSA 2010. OOIDA 
doesn't share the ``sky is falling'' Chicken Little view that 
this is going to put hundreds of thousands of drivers off the 
road. We do think it will interject a level of accountability 
that has been sorely needed and has been missing. We share some 
of the concerns over warning tickets and at-fault accidents. 
This program, like any program, really gets down to the devil 
is in the details, and we look forward to working with FMCSA to 
address those issues and make this program truly effective and 
improve highway safety.
    Mr. DeFazio. Thank you for that succinct testimony.
    We will begin the first round of questions.
    Administrator Ferro, I am a bit puzzled as to timing and 
implementation. I have a number of questions about that. The 
University of Michigan Transportation Research Institute, I 
think they are scheduled to report their findings on the 
program in December. And I am wondering, you have had pilots, 
which are a way we are supposed to work out kinks and/or 
problems and modify our proposals and look toward broader 
implementation, and now we have an evaluation of those pilots 
that we are not going to see until December; yet, you are 
proposing essentially a rollout of this program contemporaneous 
with the receipt of the evaluation and/or critique. Why 
wouldn't you be informed by that which may lead to some changes 
before you would go to a broader implementation beyond the 
pilot States?
    Ms. Ferro. Mr. Chairman, certainly a fair question. With a 
30-month pilot or operations model test under way since early 
2008, and the extensive work done in contacting and 
communicating with stakeholders, we have accumulated an 
enormous amount of information by testing this system and 
testing the validity of the correlation between the violations, 
the safety violations, the groupings of those safety violations 
into BASICs and their correlation to crash risk throughout this 
process.
    And in many cases, as we have come towards the end of the 
study period or the operations model period, we have been able 
to use some of the preliminary findings both to identify the 
effectiveness as well as the efficiency improvements in this 
new CSA process. We have also had, with the elements of the 
algorithm itself that underlie the safety management system for 
the carrier, those elements and those algorithms have been 
tested, the correlations have been tested, and they have been 
available through a transparent process--both our Web site as 
well as our kind of iterative Webinars for public comment and 
for feedback.
    And so at this point, we have a strong confidence in the 
system and the validity behind the system and continue to work 
with the input that we are receiving on fine-tuning some of the 
weightings behind portions of the algorithm. So in terms of the 
first phase, we are very confident that this is the step to 
take this year.
    Mr. DeFazio. But you have got 41 States who aren't in the 
system. You heard Mr. Keppler say that some of those States may 
have potential legal barriers. None of those, I am not aware 
that there has been any, other than having Webinars or a 
transparent system, there has been any meaningful engagement 
with those States and/or a timetable to those States and/or 
instructions to those States in terms of how they are going to 
have to change their existing systems in order to meaningfully 
gather and integrate their data the way the pilot States have 
done over the last 3 years between now and January 1st. And 
these are States that are under unbelievable stress, many of 
them are cutting personnel. And there will be no Federal 
assistance forthcoming. So I am not certain this is a realistic 
timeline. Could you comment on that?
    Ms. Ferro. Yes, I will clarify again. The process of 
submitting violation data to the FMCSA's data base does not 
change under this system. The difference is that we are now 
using the violation data in a more robust and detailed manner 
than we have had before.
    Mr. DeFazio. Though we have had some problems historically 
with some States' meaningful and on-time comprehensive 
reporting of the data.
    Ms. Ferro. And that, in fact, has been the attention of IG 
reports in the past and as well as Congressional action, and as 
a result, we have been for the past 5 years undertaking a 
concerted effort to improve data quality working closely with 
CVSA through training, through grants, through our annual 
commercial vehicle safety planning effort with the States. So 
the data improvement quality has been a consistent path forward 
to the point at which we now receive, again, over 95 percent of 
crash reports, fatal crash reports within the time frame, which 
is 90 days, and about that many in terms of violation or 
inspection reports within the 21-day time frame, and the 
accuracy of the data has proven to be quite good as we continue 
to improve it.
    It is a continuous improvement process, there is no doubt 
about it. And CVSA put together a workgroup last year to work 
closely with us on continuing that very focused effort.
    Mr. DeFazio. But, Mr. Keppler, you raised the specter of 
two things. One, you said there may be some potential legal 
barriers. And then toward the end of your testimony, you 
questioned whether or not--answer that while I find your other 
quotation here. Oh, yes. On page 11: Another issue that has 
been brought to our attention is whether FMCSA will be able to 
implement the information systems and software changes to 
support field operations in a timely manner. So you have got a 
concern about information system software and legal authority. 
Do you think all that can be addressed by December 31? In my 
State, the legislature isn't in session at that time.
    Mr. Keppler. Mr. Chairman, those are good questions. 
Through the Motor Carrier Safety Assistance Program, the 
regulatory changes, there is 3 years to adopt regulatory 
changes. Many of the changes that are anticipated with CSA 2010 
don't necessarily need a regulatory change, are using the data 
differently. Because of the issue with the pilot States not 
necessarily knowing all the impacts yet, what our members have 
told us is they are in a kind of wait and see mode. They are 
supporting the program. They don't fully know all the 
anticipated changes on the software and information system side 
and, as a result, they will have to make changes to their State 
systems. So many of the changes the Feds make, that FMCSA 
makes, the States need to make those changes as well.
    So there are some concerns. It is really more the unknown 
at this point. I know that FMCSA has been working very closely 
with the pilot States and have spent a considerable amount of 
time outreaching to the other States, but I think there are 
still some unknowns that we are hopeful will continue to work 
with FMCSA to get some clarity on what those implementation 
issues are and put a time line in place to address them.
    Mr. DeFazio. I come from a probable cause State, and 43 
percent of our inspections are conducted by the State police 
only after probable cause has been established. Now, the 
probable cause obviously results in either a warning or a 
citation. In Oregon, we conduct the other 57 percent of our 
inspections at weigh stations. But it seems to me there is a 
valid point here--a number of valid points--about some of the 
scoring system and the data we are putting in, the difference 
between what is being sent in as violations from a probable 
cause State in terms of volume and/or the gravity of those 
violations versus other States who don't need that. Then there 
is the issue of a citation that has been successfully 
challenged in court but would still be scored, and then there 
is the issue raised by both representatives of the industry 
here, the at-cause or at-fault accidents. And these seem to be 
all issues and/or problems that have validity and need to be 
worked out.
    Administrator Ferro, how are you going to define the 
program to work those issues out, and what is the time line 
given the compressed schedule that you are on?
    Ms. Ferro. Sure. Let me clarify first. The component that 
we are rolling out this year is the system we use to prioritize 
our work on carriers we look at as well as allow the roadside 
inspector to focus their inspection as they are pulling trucks 
over. So this is a work tool for us much like SafeStat.
    In terms of elements of those violations, the violation 
data itself is already being put into the system. That is not a 
new process. The method of interpreting that data and actually 
turning it into a carrier safety rating depends upon the 
adoption of the safety fitness determination rule, which is 
going to be an NPRM early next year. So that process, that 
opportunity to identify system interface and things will 
continue and be a very open and public and a longer term 
process than rolling out this initial tool this year.
    With regard to the specific reference to crash indicator, 
we recognize the issue of crash accountability. Our data 
continues to compel us, as we have always used it, to identify 
crashes regardless of fault as being an indicator of future 
likelihood of a crash, or likelihood of a future crash. That is 
just what the data says. And so to that----
    Mr. DeFazio. What would the data say about what we saw on 
the video? The data would say that that driver who was rammed 
and tried to avoid the vehicle causing a crash is more likely 
to cause another crash because someone, some jerk rammed him? I 
mean, it tracks jerks or something?
    Ms. Ferro. The way we will treat that data, again, I think 
is the core here; that data will only be listed as a crash. It 
will not be rated. It is an indicator on the system only, just 
as we use it today.
    Should a carrier safety fitness rating be impacted or be 
ready to be determined as unfit, any crashes in that carrier's 
record will be assessed and analyzed for accountability before 
they are utilized to weigh in on that carrier safety rating. It 
is the process we use today. Now, going forward--we 
interestingly enough, parallel to ATA--also analyze a crash 
accountability process before we reveal this indicator as an 
actual measurement to the public.
    So that is an analysis that, as we have already discussed 
with some of Mr. Klein's colleagues, is a process that we also 
have identified as a valid one. It has been a longstanding 
issue for FMCSA. It is not a new issue. It is one we are very 
determined to come up with an appropriate resolution for, for 
purposes of fairness and transparency, as you indicate. We 
won't have that ready this year. But, again, that process and 
analysis is absolutely underway.
    Mr. DeFazio. One last question. I have exceeded my time. 
There is some difference of opinion, it seems to me, between 
the associations on the public availability of this data. I 
would like everybody to comment on that. Mr. Klein, you raised 
the concern. You might summarize your concern. Then Mr. Spencer 
might respond, and then Ms. Ferro and Mr. Keppler.
    Mr. Klein. Thank you, Mr. Chairman.
    My concern is until we get the data to be accurate and 
reflective of the true performance of a carrier, by making it 
public it misrepresents those carriers that are safe and might 
get a false positive in identifying them as being unsafe; or, 
even worse, having unsafe carriers operating that don't get 
flagged in the system as being unsafe and therefore no 
consequences associated with it.
    Mr. DeFazio. Mr. Spencer.
    Mr. Spencer. I guess the concern that we will perhaps share 
is that we are concerned with the accuracy of the data and 
certainly how that data is interpreted. We don't have any 
specific issues with accidents. I mean, accidents are actually 
made available now until the SafeStat issue was questioned. But 
what is wrong with designating total accidents and at-fault 
accidents--have a distinction? It seems to make sense to us.
    We think the focus of safety is better served focusing 
exclusively on accidents. Having said that, the vast majority 
of accidents that take place on the road are not DOT 
reportable. Our members' trucks are crashed into at truck stops 
on a regular basis by many of the companies that simply turn 
out, churn out untrained, unqualified drivers simply to fill 
seats. You have all heard about these chronic driver shortages 
we have. Well, this is nothing more than the industry's 
propensity to churn, burn up drivers, great, great big 
turnover. Those guys do have lots and lots of crashes. Those 
things need to somehow be reflected, and they do represent an 
overall reflection of how a carrier will operate.
    Mr. DeFazio. Briefly, Administrator Ferro, whoever wants 
to.
    Mr. Keppler. Thank you, Mr. Chairman. First, I would take 
issue with my distinguished panelist on the accuracy of the 
data. As Ms. Ferro indicated, 95 to 100 percent of the data is 
accurate. One of the things FMCSA did when they launched this 
program is do an analysis of the existing data in the system. 
That analysis showed the data is valid, accurate, and uploaded 
in a timely fashion. As she indicated, it is being uploaded in 
a timely fashion. Yes, several years ago it was an issue. But 
through millions of dollars of grants, through the safety data 
improvement program to the States, they have made enormous 
strides in terms of ensuring accuracy and timeliness of the 
data.
    On the public availability of the data, that portion of 
your question, we think that is a valuable approach to take, 
because having that information available to the public helps 
encourage other people in the safety accountability chain to 
view that data and take actions to impact safety. So we think 
that is an important aspect of the program.
    Mr. DeFazio. OK. Quickly, Administrator Ferro.
    Ms. Ferro. Thank you. And I would reinforce Mr. Keppler's 
point. Again, this program is about compliance, safety, and 
accountability, and public view of the data is part of that 
accountability measure.
    I do want to point out, though, carriers have had the 
opportunity to preview their data since April of this year, and 
we encourage everybody constantly to do so. By the end of 
August, carriers will be able to preview their data based on 
the measurement system. The public won't have view of it until 
the very end of the calendar year. So, again, we want to be 
sure that carriers have ample opportunity to look at their data 
where they have questions about violations, to push it through 
the DataQ process, which is the process that pushes it out back 
through the State, and questions the validity in cases where 
they may have questions or uncertainty or challenge the 
accuracy of the violation itself. So there is a process itself 
already in place.
    Mr. DeFazio. Thank you. I turn now to Ranking Member 
Duncan.
    Mr. Duncan. Well, thank you, Mr. Chairman. And yesterday I 
met with my staff and they told me many good things about this 
new system. But let me tell you about a concern I have by 
telling you what I am going through with another safety 
administration within the Department of Transportation.
    About 12 days ago, I was contacted by a company in 
Knoxville, ARC Automotive, that makes air bags and uses the 
chemicals that make the air bags explode, and for many, many 
years they have been getting a permit to use this chemical from 
the Pipelines and Hazardous Materials Safety Administration. 
And in the past, they tell me that it always just took seven to 
ten days. They basically just got it done with a phone call. 
They have never had a safety violation. But the safety 
administration recently went to a new system that supposedly 
was more online, and then on their Web site they said it is 
going to be simpler, easier, more efficient, and so forth.
    So they filed a renewal application on May 1. And their 
permit that they had ran out ran out May 31, and they didn't 
worry about it, because they thought that in the past it had 
been done so quickly and this new system was supposed to be 
better and quicker and so forth. Well, now they have had to lay 
off a third of their workforce, over 100 people, and they can't 
get any response from this administration. And I sent down 12 
days ago a letter, hand delivered to the administrator, 
emergency, to try to get these people back to work.
    And so now I hear about your coming in with a new system 
that is supposed to be better and so forth, and yet I am also 
told that it is more data driven, more data intensive, more 
information, and all that. And I am just wondering, when I 
chaired the Aviation Subcommittee, I used to hear complaints 
from the FAA inspectors that what the FAA cared more about was 
making sure they had all the paperwork in place and in order 
than they did about actually fixing real problems. And so I am 
just wondering, is this going to create more paperwork because 
it is getting more information, or is it--I liked what Mr. 
Spencer said about what we need to be concentrating on is 
actual accidents and the companies that are having the most 
accidents. So, do you understand why I am a little bit 
skeptical at this time?
    I remember a few years ago reading a column by a nationally 
syndicated columnist, Charley Reese, and he said that the 
computers had created a lot more paperwork now because he said 
that in the old days, if he were going to send a copy to 
somebody, he would put a piece of carbon paper in and he would 
send one copy. But now, he can push a button and send it to 20 
or 200 or 2,000 people. It has created a lot more paperwork for 
the Congressional offices, I know that. But I am just wondering 
about all that, particularly because I am going through a 
problem right now with this other safety administration at this 
time.
    Ms. Ferro. I appreciate that concern, and I am sorry for 
the problem today that ARC is experiencing particularly with 
regard to the employees.
    This might be an appropriate time to put up a slide that 
shows two pie charts, I think it is slide two.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Specifically, the difference--to sum it up, this is not new 
paper. CSA 2010 takes existing violation data that carriers 
already receive through their inspection reports, and uses the 
data to assess the carriers' performance by grouping it into 
seven BASICs.
    So if we looked at the current system, which would be on 
your left, the current system--and this is for our internal 
prioritization tool to identify which carriers we are going to 
go look at, as well as what roadside inspectors are going to be 
looking for. So our current system groups out of service data 
and crash data into four broad categories, and you have to have 
a deficient rating in two of the four for us to come take a 
look.
    Now we are taking the same inspection forms on out of 
services, but going beyond to any other violations that that 
inspection may have identified or an inspection report that is 
all clean, and we are using all of that data to analyze it into 
seven BASIC groupings that again is not new.
    Mr. Duncan. I am not trying to overlook you. I have a 
bigger view of it right behind me.
    Ms. Ferro. So it is on your right, the sort of granularity 
that the new way of sorting the violation data achieves. So 
this is not new paper for a carrier.
    With regard to ARC as a hazardous materials carrier, you 
indicated that they have a very strong safety record. If a 
carrier is safe today, they are probably safe tomorrow under 
CSA 2010. But, again, under the new program it is our analysis 
of the data and the presentation of that data on the carrier's 
screen through us, the CSA 2010 Web site, that enables the 
carrier to also look at where they see a deficiency in any one 
of those seven BASICS on the pie chart on the right, as opposed 
to this sort of averaged grouping of the four elements on the 
left.
    So, again, it is not new paperwork. It is a better analysis 
of current performance data that comes from regular inspection 
activity already happening at the roadside.
    Mr. Duncan. I have got some other questions, but I will 
wait until other Members have a chance.
    Mr. DeFazio. Representative Walz.
    Mr. Walz. Thank you, Mr. Chairman and the Ranking Member. 
And thanks to each of you for being here today to help us with 
this. And I want to echo what the Chairman said, Administrator 
Ferro. I do think it is important you are sitting at the table 
with these folks because that is the way you are approaching 
this, and I appreciate all of you being here.
    Safety is obviously the number one concern for all of us 
and trying to get it right in a way that still gives economic 
viability to our truckers that are out there. I heard an 
interview with a gentleman a couple years ago that I think sums 
this up. He was working at Los Alamos Laboratories as a high 
energy particle physicist, and he was leaving that career 
because he wanted a greater challenge and he went into highway 
safety. And it was the truth. He said it had become too easy to 
deal with quantum physics; that he needed something where all 
the variables were unimaginable.
    So we are dealing with a very difficult situation. We are 
dealing with a lot of those variables. So I am very 
appreciative. And what we are trying to get at here is that 
sweet spot between a new program that improves safety, but 
doesn't pose the burden or an unfair nature onto our carriers. 
So just a couple questions. I also think it is very interesting 
today, I certainly wish there were more members here to hear 
what is happening. Colorado is here, Maryland is here, New 
Jersey is here, Minnesota is here. Pilot project States are 
aware of this. And I have been hearing this and been out there 
at Smith Trucking and others, and we are getting that. That is 
the way it should be. Pilot programs should be here. I 
guarantee that you have this after implementation, and this 
room will be full, of trying to get it right, because Mr. 
Spencer was right, the devil is in the details. So we 
appreciate everyone here. But I just had a few questions coming 
down on those types of things.
    I am concerned on, I guess, on several things. Maybe--and I 
don't want to get too much into the theoretical--but there is a 
due process issue here that I feel like our carriers may be 
subject to: warnings. You don't have a due process right to go 
in and appeal a warning. It is a warning and it is weighted and 
it is on, unlike a citation that might be there. And probable 
cause States, as the Chairman kept bringing up, I think this 
poses a huge issue with the validity of your data and the 
burden that is falling on certain carriers on how they are 
being weighted. So a couple of questions.
    The first, I would go through this. Administrator, have you 
looked at the correlations between actual crash risk, the 
correlation, paper violations as opposed to warnings as opposed 
to speeding tickets or whatever? What is the formula for that? 
And I guess I would also--my concerns are, all in the best 
interest of safety, you are getting feedback on this. I think 
we are finding obvious glitches in this. But we are already 
reporting and putting some people's reputation on the line out 
there. The University of Michigan hasn't reported yet. Why not 
wait until we get that? And if you can answer, I know it is a 
double-fold question, how you are weighting that? And why the 
time line?
    Ms. Ferro. Sure. So with regard to the weightings. First 
and foremost, yes, the safety violations that are utilized and 
sorted into those seven BASICs that I put up on the slide 
before are all identified, analyzed, and correlated to crash 
risk. And in fact, within each of those categories relative to 
the violations in those categories, they are weighted based on 
their severity of leading to that crash. In the case of HAZMAT 
it is more, what is the outcome of the crash if it happens on 
HAZMAT and load securement.
    That being said, with regard to violations, warnings, and 
citations, studies show, both our own analysis as well as one 
done by ATRI, the American Transportation Research Institute, 
that patterns of violation, patterns of moving violation 
convictions, or patterns in our case of violations do form an 
indicator of crash risk going forward.
    Mr. Walz. Did you weight in there probable cause States 
with warnings? Your chance of getting one of those is greatly 
enhanced. And if that is going into a weighting, it seems like 
the validity of the question for those carriers or those 
operators is at risk.
    Ms. Ferro. Well, two things again. Weighting is reduced 
based on the timing of the violation or the aging of the 
violation, the severity as it leads to crash risk. We do not 
distinguish between warnings or violations today or warnings 
issued without a conviction. I will say, however, that based on 
some of our work with CVSA, we certainly have identified that 
there are thresholds on speed, for example, as a violation, 
over by 1 to 5 miles an hour, 5 to 10, 10 to 15, and so on. And 
we are, with CVSA's very clear assistance, identifying and----
    Mr. Walz. What about a citation that is dismissed in court? 
Does that just go away?
    Ms. Ferro. Now, that is a matter that is under review. I 
will tell you, I was just in Indiana and that State will remove 
that violation if the charge is dropped.
    Mr. Walz. Should it not? Because wouldn't it, in our legal 
system, indicate that that person was innocent no matter that 
they went through the process? Are you using a crystal ball to 
define what their intent was? That is my concern.
    Ms. Ferro. I will affirm to you that that matter is 
definitely under review in our organization.
    Mr. Walz. The last thing I would ask, my time is up. I 
would ask our two carriers, Mr. Klein and Mr. Spencer, what 
does this do for the number of safety specialists you have got 
to put on board with your companies? And how does an 
independent operator handle that in terms of compliance to get 
there with this?
    Mr. Spencer. Most of our members are individuals that own 
the truck they drive. Nobody has to be looking over their 
shoulder, shaking their finger, saying: Drive safe. Because not 
only is it their life, but their livelihood is on the line. 
And, as such, this particular group of people have exemplary 
safety records, and that shows on the highway. In the instance 
of--and those that they are going to generally employ are going 
to have similar traits, similar characteristics and mannerisms, 
because the closer you are to the boss, the easier it is for 
him to get a hold of you and make sure you are on the straight 
and narrow.
    Mr. Walz. How do these guys keep up with all the paperwork? 
Or maybe there isn't that much. That is what I am asking. What 
is going to happen in a company? Mr. Klein?
    Mr. Klein. In our organization, we have probably 10 people 
focused on safety right now. And that was prior to CSA 2010 
pilot implementation as well. It has redirected their resources 
and where they are spending time. They are focused on things 
beyond the scope of accidents and other things that they did 
focus on before. And I think a lot of the smaller businesses, 
the smaller trucking companies will have to add safety 
resources in order to support the efforts under CSA 2010.
    Mr. Walz. I yield back. Sorry about going over time, Mr. 
Chairman. Thank you all.
    Mr. DeFazio. No problem. Those are good questions.
    We are going in the order in which people were recorded by 
staff. So I have plausible deniability. And Mr. Sires would be 
next.
    Mr. Sires. Thank you, Mr. Chairman. And thank you for 
holding this meeting and thank you for being here.
    I listened to all this data that you are collecting and 
everything else. I was just wondering, since the trucking 
business is made up basically of small business owners or self, 
how is all this implementation impacting small businesses? Is 
it sort of positive or is it negative? I know you said you 
agree with some of this stuff, but--
    Mr. Spencer. Well, obviously we are very optimistic that we 
can work with the agency and keep the focus in a direction that 
actually measures and assesses what are the real safety issues.
    Mr. Sires. From the information that you have now, because 
I keep hearing all this information that we collect, have you 
made a determination?
    Mr. Spencer. Well, we still have concerns over how tickets 
are recorded, warnings versus real tickets. We have concerns 
over accident causation. As we saw in the film, and actually 
the numbers show, over and over and over the truck driver is 
going to be the least likely to have caused the accident.
    Mr. Sires. And I come from New Jersey. I am sure you 
collected a lot of good information. Do you share, do you sit 
down with the other pilot States and compare the data and see 
if there is a pattern? You know, do you do all this before you 
go on to some of the other States? Do you share with the new 
States that are coming in?
    Ms. Ferro. Yes. And Mr. Keppler might want to join in on 
this as well. We absolutely do. Our administrators throughout 
the country have been working with their peers in the test 
States and have been meeting both with industry representatives 
at drivers meetings, primarily with their State law enforcement 
partners, talking about the program. As I say this has been 
under development for upwards of 6 years. So the conversation 
has been constant and ongoing. It is getting very fine tuned 
now because we are so close to everything happening, and so 
folks are paying more attention. There are absolutely change 
management elements to this process. There is no doubt about 
it. We are taking violation data we have been collecting for 
years and actually using it to assess performance, and that is 
the big difference.
    But, yes, the conversation with the State partners has been 
constant. New Jersey has been a big help. They have been a 
pilot State. They have been a big part of that conversation 
with their other State colleagues. And we do meet as regions, 
we meet nationally, and then we meet locally when we are 
developing commercial vehicle safety plans and absolutely in 
developing this program.
    Mr. Sires. How do you share the information with, say, New 
Jersey, the State troopers are the ones, basically.
    Ms. Ferro. Yes. Mr. Keppler might want to speak to that 
process from his perspective.
    Mr. Keppler. That is exactly right. This program, we have 
been working very closely with FMCSA, the pilot States. Our 
members are the organizations. New Jersey State Police is our 
member. So this has been an ongoing process for a number of 
years. At every one of our meetings, our conferences, constant 
interaction on the good parts of the program, how we can 
improve it.
    One other thing I did want to note to clarify, that the 
warning and citation information does not go and is not 
accounted for in the whole safety measurement system. Those are 
separate enforcement actions that do not get compiled in the 
whole data analysis part of the program. I want to make sure 
people understand that. Only the violation information. So it 
is a separate process, so that in terms of the violation's 
clarity and severity, the citation and warning data does not 
count towards the motor carriers.
    Mr. Sires. Do you want to add anything?
    Mr. Spencer. The only thing that I was going to add, and I 
should have said it a while ago, is that one of the reasons 
that we are positive about this program is that for the first 
time it is actually going to require the motor carrier industry 
to belly up to the bar and actually assume--not only assume 
responsibility, but that responsibility is going to engage them 
on the real need to fix some of the situations that create 
unsafe atmospheres for drivers, dealing with shippers and 
receivers and loading and detention time, some of these things 
that have just been lumped off on drivers; and if the driver 
doesn't do right, you fire him and even replace him with 
somebody else. That doesn't improve safety. That just sort of 
perpetuates what has problems.
    Mr. Sires. Thank you very much.
    Mr. Klein. Just to give some data relative to my 
organization. Because it is not public, I don't see other 
companies, but I can talk about our data.
    In our unsafe driving BASIC, over 65 percent of our points 
come from speeding violations; and of that, only 25 percent of 
those were actually citations that were issued to our drivers. 
75 percent of those points were coming from it being flagged on 
an inspection as a warning, as an opportunity to pull somebody 
over. So over 45 percent of our points, almost half of the 
points in unsafe driving come from warnings according to the 
system. In addition to that, half of those come from three 
States which are probable cause States.
    Mr. Sires. You don't want to mention the States?
    Mr. Klein. I can provide a list of the probable cause 
States.
    Mr. Sires. Thank you very much.
    Mr. DeFazio. I thank the gentleman. We would now go to, I 
guess it would be Ms. Edwards.
    Ms. Edwards. Thank you, Mr. Chairman. And thank you all for 
your testimony. I am from the State of Maryland, and I just 
have a couple of questions related to training and guidance, 
Administrator Ferro. In your testimony, you indicated that 
prior to pilot testing there had been testing of CSA 2010, that 
you developed training for safety investigators on the new SMS 
and the CSA 2010 interventions. Do you plan to train each of 
the remaining States as they are coming on line and for 
scheduled implementation in those States?
    Ms. Ferro. We will be training all of the States. Not all 
of it will be on site in the individual States; however, there 
is a strong on-site presence by our division offices and 
division administrators that complement the training that may 
come through, in some cases, Webinar; in some cases, off site 
with teams of enforcement officers at our training centers 
across the country or at training sites. But our goal is to do 
the first component of that training in person.
    Ms. Edwards. The reason I ask is because, Mr. Keppler, I 
think it was in your testimony where you indicated that there 
is such, I think, wide variation among the States around 
enforcement. And if there isn't some sort of standard set of 
training that goes, how can you actually expect the States to 
clear up that variation and to make certain that at least from 
a long haul driver my uncle in Nebraska, if he is driving 
across the country with his independent company, that there is 
the same set of standards across the country, and that 
investigators and inspectors understand that. And he can expect 
the same kind of enforcement in Nebraska when he arrives 
delivering his cargo in Maryland?
    Mr. Keppler. The core reason for our organization's 
existence is uniformity and reciprocity. We have been working 
for almost 30 years now to ensure that we promulgate standards 
from the roadside inspection process, the training. You are 
right, there is a lot of work. But I think what we have been 
doing over the last couple of years is putting in place, with 
FMCSA's help, understanding as we are going through this 
process, what are those key pieces that we need to fold into 
the whole training program to ensure when we do roll this out 
we have got consistency and uniformity across not just U.S. but 
also Canada and Mexico? And it has been something we have been 
working very hard on with them. Yes, it is still a challenge, 
but I think we have got the pieces in place to make sure we can 
make it happen.
    Ms. Edwards. And Mr. Spencer, before we get on to that, do 
you have some sense, though, especially for some of your 
independent operators as well as the larger companies that they 
will understand that uniformity, that they will understand what 
those standards are and that violations are recorded in a 
similar way from one State to the next?
    Mr. Spencer. The consistency and the quality of data has 
been a frustration in our industry, and I know with States, 
with the entire enforcement community, for decades. We have to 
be really, really optimistic that it can improve. But what this 
sort of underscores is the need for having a way to correct the 
record if violations or citations or warnings are written that 
should not have been. There needs to be a real meaningful way 
that an objective overview can take place and purge the record 
if that is what is required. Now, that is going to be key for 
the small person. Obviously, you don't want to start out with 
ten points against you from day one. So we know from our 
experience that individual owner-operators are going to be the 
safest on the road. So they shouldn't start out in the hole.
    Ms. Edwards. Did you have something to add, Ms. Ferro? And 
then I believe my time is about to expire.
    Ms. Ferro. I just wanted to clarify that we do develop and 
deliver uniform training through our Motor Carrier Safety 
Assistance Program across the country and have been for some 
years, and, in fact, that is the originating purpose of our 
training center. So that uniformity in training is a standard 
practice for us.
    Ms. Edwards. I just have one last question, and it has to 
do with things like in the metropolitan Washington area, 
particularly in Maryland, we reserve our left lane so that 
trucks, particularly those carrying hazardous materials, can't 
use that left lane. But it is not totally clear to me whether 
things like that actually contribute overall to safety. Do you 
all have any comments about that?
    Ms. Ferro. I don't. I will follow up with Federal Highways, 
though, and come back to you with a clear response for the 
record. It is a fair question.
    Ms. Edwards. Mr. Klein?
    Mr. Klein. I can give you a little anecdote from our 
organization. We govern our trucks at a top speed of 62 miles 
an hour and strongly train and encourage our drivers to run the 
right lane, because lane changes create an opportunity for an 
accident to happen. So I believe having car traffic in a 
further left lane is a good idea.
    Ms. Edwards. Thank you, Mr. Chairman.
    Mr. DeFazio. Now Mr. Schauer.
    Mr. Schauer. Thank you, Mr. Chairman. I will allow Mr. 
Spencer to respond.
    You wanted to respond to Ms. Edwards?
    Mr. Spencer. Well, I did actually. It has been our 
experience, and, again, I am a former driver, all lane 
restrictions ever really do is cause higher concentrations of 
vehicles in those particular lanes, and they are generally all 
driving as fast as they can go, bumper to bumper. It sort of 
discourages what we see as intelligent driving, meaning if you 
need to go around a slower vehicle, you pass on the left and 
you move to right.
    These are sort of the rules of the road that ought to be 
second nature to old drivers, to all new drivers. Those kind of 
lane restrictions, and having different speed limits, too, just 
sort of works to obstruct and make it harder to change lanes.
    Mr. Schauer. Mr. Chairman, thank you for the opportunity. 
Thanks for holding this hearing on the comprehensive safety 
analysis approach.
    First, my district is in Michigan, so it was good to see 
the University of Michigan's leadership role in transportation 
safety. Many of their people live in my district.
    I have heard from some local businesses who question what 
is meant by driver fitness, and I wonder, Ms. Ferro, if you 
could start by talking about that. I am not sure they 
understand what this new safety analysis approach actually 
means. Maybe if you could talk about any rulemaking that might 
address driver fitness. I want to make sure they understand.
    I will specifically tell you, and this is sort of is where 
the rubber meets the road, I hear from a small business, they 
haul scrap tires, and he hears from one of his sort of peers in 
the business that drivers are going to be taken off the road 
because they weigh too much, not the vehicle, but they 
themselves. So talk about driver fitness and driver fitness 
within that.
    Ms. Ferro. A very interesting topic.
    Mr. Schauer. And if you could tell me the facts versus 
fiction so I can tell them what is actually going on.
    Ms. Ferro. Thank you for the context, because I was still 
on my regulatory fitness mode.
    With regard to determining safety fitness, FMCSA is 
obligated for motor carrier, for vehicle, for driver, so it is 
across a range of entities or elements that are part of that 
commercial vehicle traveling on the highway.
    Specifically, it gets to the safety of that carrier, that 
vehicle or that driver, both with regard to--specific to 
driver, the driver's violation data; with regard to unsafe 
practices, what you heard, lane changing, speeding, improper 
record with regard to their medical fitness and so on.
    Now, there is a physical fitness component of being a 
commercial driver. There is a tough qualification standard with 
regard to blood pressure, with regard to any persistent 
specific types of disabling diseases. So that is, in fact, a 
component of driver fitness and is why unfit--or driver fitness 
is one of those carrier BASICS in terms of the DOT physical 
record. So your constituent isn't too far off.
    With regard to the myth that this program will take drivers 
off the road because of their physical fitness, there is no 
change in the way we will treat drivers' qualifications to be 
operating commercial vehicles under this program. It is just 
that we will be using more current violation data that has been 
determined at a roadside inspection or other stop.
    Mr. Schauer. Mr. Spencer, I want to hear from you in a 
second, and I will ask this as a follow-up. Is there any limit 
in terms of how much a driver can physically weigh as part of 
these standards?
    Ms. Ferro. There is not a weight limit. There are, however, 
conditions with regard to blood pressure, with regard to 
diabetes conditions, with regard to other elements that may 
contribute to a driver's abilities to operate that vehicle 
safely.
    Mr. Schauer. Thank you.
    Mr. Spencer?
    Mr. Spencer. Our organization, I would say, shares the 
concerns that maybe you have that have been conveyed to you in 
that we see a tremendous unfounded focus on looking at things 
like neck sizes or weight of truck drivers and somehow making a 
correlation between that and highway safety. When we talk to 
numerous millions and millions of miles safe drivers, we know 
the correlation to safety isn't there, but they are certainly 
attempting to, in essence, sell this disease that you got and 
they got the cure.
    We think it can take drivers off the road, and we certainly 
hope that our lawmakers and policymakers will recognize snake 
oil when it is offered to them.
    Mr. Schauer. Are you addressing your concerns to Ms. Ferro 
and her agency? I am sort of trying to read between the lines 
here.
    Mr. Spencer. At every opportunity.
    Mr. Schauer. Including this morning.
    Thank you, Mr. Chairman.
    Mr. DeFazio. Thank you.
    We will go to Ms. Richardson.
    Ms. Richardson. Thank you, Mr. Chairman.
    First I am going to give more of a comment to you, Ms. 
Ferro. In terms of the progressive interventions, I would be 
really concerned with starting with a warning letter. I would 
tell you after what we have all lived through, unfortunately, 
now with the spill and many other things that have happened, I 
think inspections, if we know there is a problem, we need to go 
directly to the source. So my personal comments would be to 
that.
    For those of you who may not know me, I represent the Long 
Beach-Los Angeles area where over 45 percent of the entire 
Nation's cargo goes through. So one of my questions is, how did 
you determine your pilot States? I am a little surprised that 
you didn't include that area, since almost half of the Nation's 
cargo, half of the trucks, are going through that area. I was 
just a little curious why you didn't include port communities, 
except for New Jersey?
    Ms. Ferro. And Maryland.
    Ms. Richardson. Well, I am not going to get into a tussle 
with my colleague, but I will venture to say port communities 
in size--I am talking about a real--I am going to leave it at 
that, because this is my buddy over here. You are not going to 
get me in trouble.
    Ms. Ferro. I am a Marylander. My apologies.
    So with regard to the selection of the pilot States, I am 
afraid ignorance is no excuse, but I was not on board at the 
time those were selected. In some cases it was a matter of our 
division administrators and our project team reaching out to 
States who wanted to be part of the pilot. However, I will 
follow up with you with specifics, if, in fact, California was 
contacted and for some reason we didn't pursue.
    Ms. Richardson. Well, I would just say in terms of rolling 
out the program, it is going to become very difficult when you 
are piloting more smaller States who don't have some of the 
unique challenges that we have. One of the biggest problems, on 
any given day we have a jackknifed truck, all kinds of things 
are going on on the 710 Freeway. So it would just seem if we 
are going to be able to get at some of those issues, it would 
really help to test if, in fact, the system is going to be able 
to work in terms of some of the inspections and other things 
that are part of your program.
    Ms. Ferro. Well, if I may, with regard to California, one 
of the exciting components for us is that the incoming chair of 
CVSA, the organization that actually has all of its membership 
as State law enforcement officers, is Captain Dowling from 
California, who heads up the commercial vehicle law enforcement 
efforts in California. He has been an effective and very 
engaged member of the CSA 2010 discussion. So it is a very well 
discussed topic among California law enforcement, and very much 
part of our audience.
    If I could comment real quickly on your warning letter 
comment as well, if I may?
    Ms. Richardson. If I could get through a couple of my 
others, and then we will--hopefully we be able to come back.
    One, I wanted to concur with the ATA that you would have 
the same rate for a driver whether the accident was at their 
fault or not. It just seems to me kind of basic. Why would you 
give the same rating if it wasn't their fault? I mean, it is 
not their fault. So that didn't really make sense.
    Then coming from local government, I am really concerned 
about having adequate funding to be able to roll out this 
program. What we don't need is another unfunded mandate. So my 
question to you would be what are you going to do to make sure 
there is adequate funding, and how are you working with the 
administration to make sure that it is the case?
    Ms. Ferro. Would you like me to speak to the crash 
component as well?
    Ms. Richardson. Sure. In about 30 seconds.
    Ms. Ferro. OK. Well, we are examining crash accountability 
and identifying a process for determining before we get to the 
point of actually making crashes a measurement on the public 
system. So that is point number one. We will continue to use it 
for prioritization purposes, but not as a measurement.
    With regard to resources, I think that is an ongoing 
discussion. I think Mr. Keppler put that on the table. We have, 
the agency, in our fiscal year 2011 budget, requested an 
additional about 50 people for the field specific to this 
program. In addition, we support our State law enforcement 
through the Motor Carrier Safety Assistance Program, a 
nationwide grant program that funds vehicle enforcement around 
the country.
    Ms. Richardson. Well, I think it would be really important 
to know how you plan on utilizing those people, because, as I 
said, in my area alone we could stand to use 20 people. So if 
you could supply that information to the Committee.
    Then, finally, Mr. Spencer, if you could get at least one 
of your key points that you wanted to have included in the CSA 
2010, what would that be?
    Mr. Spencer. I guess it would really be a matter of placing 
the appropriate people and holding them accountable and 
responsible. I think it is curious, you are from L.A. and Long 
Beach where problems with port trucks specifically have been 
growing, have been bad for a long, long, long time, and those 
problems existed, whether they are safety, mechanical condition 
of the vehicles or environmental, mainly because the carriers 
that actually operated those trucks weren't responsible, and 
they were not held responsible. Hopefully this CSA 2010 program 
will bring that accountability that is sorely needed.
    Ms. Richardson. Thank you, sir.
    Mr. Chairman, could I get an additional 5 seconds for her 
to answer the question on the warning letter?
    Mr. DeFazio. An additional 5 seconds.
    Ms. Richardson. I already asked it. She just has to answer.
    Ms. Ferro. Thank you very much for that consideration.
    In short, the warning letter is one of several measures we 
will use to give a carrier either an indication that we are 
coming to see them or a heads up that they are trending into an 
area of marginal safety. It is not a linear path on which we 
will take those actions. A carrier that has a sufficient poor 
rating in the area of, say, driver fatigue, we may do a 
targeted on-site investigation of them immediately. We wouldn't 
wait for a warning letter. The warning letter is really getting 
at carriers who are sort of in the middle of that bell curve 
that we are not even touching today to say, hey, you are 
starting to trend in some areas you better be looking at.
    Ms. Richardson. Thank you, Mr. Chairman.
    Mr. DeFazio. Thank you.
    I turn now to the Ranking Member Mr. Duncan.
    Mr. Duncan. Administrator Ferro, your agency contracted 
with the University of Michigan to do a study. How much did you 
pay them for that study?
    Ms. Ferro. I do not know the answer to that question, but I 
can get it while I am here, or I can follow up with you, either 
way.
    Mr. Duncan. I am just curious. What I am really wondering 
about is, that study is not going to be completed until 
December of this year, is my understanding. How much--did they 
just send you a card there?
    Ms. Ferro. Two hundred fifty thousand dollars.
    Mr. DeFazio. I understand it is not going to be completed 
until December, but it seems like everything is being done on 
this before you even get the results of that study. What do you 
say about that?
    Ms. Ferro. We have an obligation to use the most current 
data to improve our process of identifying carriers that are 
putting everybody else at risk on the highways, and the process 
of using our violation data came about through a very broad and 
open and transparent discussion that has been taking place and 
has been analyzed through our contractors in terms of their 
correlation to crash risk for some time.
    So in terms of our obligation as an agency to put safety as 
the highest priority and use our resources in the most 
effective way possible, as well as our law enforcement 
partners, it makes a great deal of sense for us to take a 
tested system and put it in place to identify and prioritize 
carriers we are going to look at either on site or through the 
roadside inspection.
    With regard to the Michigan study, which is an important 
element of this program, number one, there are preliminary 
indications from our work in the pilot States through the study 
that this program makes sense today, and it achieves 
efficiencies in change management in using this performance 
data in the system that we have developed.
    However, the additional information we will receive from 
the study will get closer to the question of what impact did it 
have on crashes in those pilot States, what impact did it show 
in terms of specific carriers--I don't want to say and I think 
it won't get to the specific carrier change in behavior, but 
the correlation between where that carrier is today relative to 
where they were prior to CSA 2010--so I think it gives us a 
more robust set of information to work with as we move into the 
process of the NPRM on the safety fitness determination rule 
itself.
    But building a system to prioritize and focus our work 
makes a great deal of sense to us today. Again, it has been in 
a very open method, so everybody has been seeing the process 
under way.
    Mr. Duncan. Thank you.
    Mr. Keppler, in your testimony you said the pilot States 
have been able to contact more motor carriers, and the quality 
of the interaction has improved. What did you mean by saying 
that the quality of the interaction has improved, and this has 
resulted in more effective corrective measures and so forth? 
What did you mean by that? And also, are there any barriers 
that you believe are there for the States to just automatically 
adopt this new enforcement model?
    Mr. Keppler. To answer your first question, quality 
interaction has a lot to do with the interventions that are 
being put in place with CSA 2010. Under the previous process, 
it was a one-size-fits-all approach with the compliance 
reviews. So the interventions have been designed based upon the 
data on the carrier and driver performance. So the actual 
reason for the intervention in the first place is because we 
have got an identified safety problem. So when that 
investigator is in visiting with the carrier, they already know 
where their issues are, and they can design how they are going 
to interact with that carrier to help point those problems out, 
but also give them, OK, here is the types of things you ought 
to do to change for the future.
    So to Administrator Ferro's point, change management, it is 
not an audit anymore. It is not going in and checking 
paperwork. It is giving feedback back to the carrier saying, 
look, here are some things you can do to improve your safety 
performance, and here is what the data is showing us. So that 
is in terms of quality of the interaction, and it is, generally 
speaking, a shorter timeframe than what has been in the past.
    So these different interventions, it is shorter, it is 
quicker, it is to the point, it is in and out. So they are 
getting to touch more carriers, the quality is better, and the 
end result hopefully is sustained behavior over time.
    Mr. Duncan. Mr. Klein, what do you say about that? Has this 
system, have these interventions become more helpful to your 
members of the American Trucking Association? And also I am 
curious, what percentage of your companies' accidents would you 
estimate that the company is accountable for causing? We have 
heard Mr. Spencer say that most of these trucking accidents 
aren't caused by the truck drivers.
    Mr. Klein. That is true.
    I will answer the second part of that first. In our 
organization we don't even look at cause, we look at 
preventability, which is a higher standard than just even 
cause. So could our driver have prevented that crash? In that 
case, last year, 26 percent of our crashes were preventable, so 
almost 75 percent were nonpreventable crashes.
    On the second part of your question--I apologize, I have 
lost the second part.
    Mr. Duncan. Well, Mr. Keppler is indicating that the 
quality of the interaction has improved, and he seems to think 
that this is making the system more helpful to the trucking 
companies and to drivers and so forth. Have you found that to 
be the case, and what has been done on this so far in the pilot 
States?
    Mr. Klein. In talking to the members of the Minnesota 
Trucking Association, I think you would get mixed reviews on 
the helpfulness of the process. I think some people feel that 
they had interventions and, based upon the audit, came out 
clean and felt it wasn't a good use of government resources. I 
think other folks did learn some stuff through that process.
    Mr. Duncan. So, it is mixed.
    Mr. Klein. So it is a mixed feedback at this point.
    Mr. Duncan. Mr. Spencer, in your testimony you state that 
this new system shifts the focus from the driver to other 
stakeholders in the industry and recognizes that drivers are 
often not the principal decisionmakers in the shipment of 
goods. How do you think this focus will improve the level of 
safety in the trucking industry? Do you think that the company 
is more responsible and administrative decisions are more 
responsible for these accidents, or what do you mean by that 
exactly?
    Mr. Spencer. Well, I have been chastised before for making 
a statement, but the safety culture that generally exists in 
trucking is it is the driver, and you are on your own. 
Obviously, the focus of virtually all enforcement, we cite the 
driver; he is going to be the person that goes to jail. Yet 
generally drivers in their environment, they work around 
everyone else's schedule. Drivers are not paid--or seldom, if 
ever, paid anything whatsoever for their time that is wasted, 
squandered in numerous situations by virtually everyone in the 
supply chain, and simply because no one else has to place a 
value.
    Now, that isn't right, and I recognize the limits of 
FMCSA's jurisdiction, but at a minimum what this program, we 
believe, will do is it will drag the motor carrier kicking and 
screaming into this situation, saying, look, you have got to 
help resolve the situation; whether it is hours of service or 
any number of other things, you have to help resolve it, 
because you can't simply pass the buck to the driver and say, 
we fired him, problem solved.
    Mr. Duncan. All right.
    Thank you very much, Mr. Chairman.
    Mr. DeFazio. Thank you.
    I recognize the Chairman of the Full Committee Mr. 
Oberstar.
    Mr. Oberstar. Thank you very much for holding this hearing 
and for the work that you and the staff have invested in the 
update on the motor carrier oversight.
    When we initiated the Federal Motor Carrier Safety 
Administration, it was during the first years of the Republican 
Majority in the House and during the early part of the Clinton 
administration, and the proposal was to elevate the motor 
carrier safety oversight function from an office, a bureau in 
the Federal Highway Administration to the level of an 
administration with equal standing with the other modal 
administrations.
    At that point I said that ``We are going to make a real 
change, and it ought to be substantive, and we ought to use 
aviation as a model.'' So the opening paragraph of the new Act 
reads, ``The administration shall consider the assignment and 
maintenance of safety as the highest priority.''
    I drew that language from the opening paragraph of the FAA 
Act of 1958, when the Eisenhower administration moved from the 
Civil Aeronautics Authority to the Federal Aviation 
Administration. They realized we are on the eve of the jet age, 
about which few people knew anything; didn't know what 
challenges jet aircraft would pose for pilots, for passengers 
and for airports, and they thought it was important to put in 
the law that safety shall be the highest priority.
    I thought at the outset of this change, which we need to 
make, that we ought to have a similar goal and standard. And 
shortly after that, Secretary Slater set as a goal reducing 
fatalities by 50 percent over a period of time, and that was a 
responsible and a reasonable approach. Secretary Pena-- 
previous to Slater--had set a zero death goal in aviation, and 
while certainly that is our goal, should be our objective, zero 
in 5 years seemed beyond reach, and so has the 50 percent 
reduction. While the injuries involving large trucks are down 
from 142,000 in 1999 to 90,000 in 2008, that is injuries, 
fatalities have gone down less than 20 percent, maybe 15 
percent.
    So, I look at the work accomplished. I think there is 
movement in the right direction. I think the new agency under 
new management is moving in the right direction. But what I am 
concerned about is your shifting--and, Ms. Ferro, thank you for 
taking on this job. Welcome to the world of conflict in motor 
carrier safety. Welcome to the Committee. We will have more 
hearings on this. You will be here as a frequent visitor, I 
hope.
    But the agency before your tenure shifted from the actual 
numbers of fatalities to rate per 100 million miles traveled. 
How do you justify that? How do you know how many hundred 
million miles have been traveled? You don't have your own 
independent data. The industry does not maintain it. Only 2 
percent of trucks are being inspected. You don't have the 
personnel. States don't have the personnel. How can you 
determine how many hundred million miles have been traveled 
when there aren't on-board recorders to tell how many miles are 
on an individual truck? Where did this number come from?
    Ms. Ferro. I believe the data is through our Federal 
highway and actually NHTSA processes. I will tell you under the 
leadership of Secretary LaHood, he formed a safety council of 
the modal administrators of the USDOT. We are all a part of it. 
High on our list of areas to address is the commonality, 
currency, and appropriateness of how we are reporting our data 
as well as the analysis of that data. And the use of both the 
rate based on exposure, vehicle miles traveled, as well as 
actual people, because that is finally who we are talking 
about, are two very important components when we are 
identifying and measuring and reviewing our performance in the 
area of achieving great safety gains. So I will tell you 
certainly it is a point of vigorous discussion in the 
Department.
    Mr. Oberstar. See, on the one hand, I have been at this for 
a very long time, and on the one hand, the industry would like 
to make it appear that the accident fatality rates are being 
mitigated because there are more miles traveled; therefore, the 
incidence of fatalities and injuries is less. You are traveling 
more, but you are still killing nearly 5,000 people a year, 
still over 90,000 injuries involving trucks.
    The goal should not be to--it is like the clean water 
program. In the early answer to pollution, it was to dilute the 
pollution. A large body of water, toxics and nitrogen and 
phosphorus and others, put it in, and it will be diluted, so 
the effect will not be so great as if it were in a smaller body 
of water. Five thousand fatalities over several billion miles 
traveled looks a lot less injurious to the public and less a 
threat than 5,000 fatalities over maybe 100 million miles 
traveled.
    What I am getting at is you are watering down the effect of 
fatalities, you are watering down the number of fatalities with 
that. I have never seen a document justifying accidents per 
miles traveled because you have no database that is reliable 
for miles traveled.
    Ms. Ferro. Well, I can tell you in our daily work at the 
agency, and I have traveled around the country to try to meet 
with as many of our employees as possible, we don't think in 
our daily work about rates. We think about people. We think 
about the people who are getting to go home each night. We 
think about the people making it to their places of work, who 
are making it to their families.
    Our focus is saving lives through the significant reduction 
in crashes with commercial vehicles, and I set that work in a 
core framework of raising the bar to enter, maintaining a high 
standard to stay in, and ensuring high-risk behaviors are 
removed from the roadway. And that applies whether it is a 
motor carrier, a driver, or a vehicle, household goods mover, 
you name it. We have got to do every element of that. And CSA 
2010 is a core component of ensuring that anyone we credential 
and allow to stay credentialed maintains a high standard to 
stay operating on the road, and it also identifies tools to get 
the high-risk behaviors off the road.
    So, again, I appreciate, I respect your perspective on 
rates, but I just want to say our focus on a daily basis is 
lives, not rates. And I can speak for our employees throughout 
the organization nationwide when I say that, because I have met 
with many of them.
    Mr. Oberstar. Well, I welcome that response and the change 
in spirit. It reflects an attitude, a culture of safety in the 
agency that that opening paragraph is intended to create, and 
that is the goal that I have, that we had. And I will say even 
when we went to conference with the Senate, John McCain was the 
lead negotiator in the other body, and he embraced that 
concept. So it is bipartisan, it is bicameral. But I want to 
see it reflected. I welcome your statement, and I hope that you 
convey that all the way through the agency.
    Now, what else do we need? You need more personnel. States 
need more personnel.
    Mr. Keppler, do you want to respond to that?
    Mr. Keppler. Yes, Mr. Chairman. I think if you look at our 
written testimony, back to Administrator Ferro's point, we look 
at it in lives saved. In 2007, the activities funded through 
the Motor Carrier Safety Assistance Program, roadside 
inspections, traffic enforcement and compliance reviews, on the 
order of $300 million, returned $5 billion in safety benefits 
just from the 866 lives that were saved in 2007. We think it is 
a very good investment of tax money. We are getting a higher 
return on our investment.
    So to your point on increased resources, we need to 
continue to fund those things that are working, and those 
things are working. And those are all key components of CSA 
2010. All those activities are fueling the data that is 
providing all these interventions and all the outputs that we 
are trying to achieve.
    Mr. Oberstar. In your review of safety, Ms. Ferro, are you 
also incorporating the information from the National Driver 
Register?
    Ms. Ferro. In the incorporation of data on CSA 2010, 
utilizing our violation data? You know what, I will have to 
follow up on that.
    Mr. Oberstar. I would urge you to do that.
    I think the National Driver Register is a valuable tool, 
vital resource on drivers of multiple records of bad driving, 
where they have had their license suspended or revoked or 
otherwise affected from bad driving in one State can go to 
another State and try to get a license.
    Ms. Ferro. I will speak to that. The NDR is not part of the 
CSA violation measurement system. It is part of clearly what 
States use before issuing either a new CDL or a transferred CDL 
from another State. It is a vital part of our system for just 
what you say, to kind of close those loopholes on those drivers 
moving from State to State and where their convictions appear 
not to be following. My apologies.
    Mr. Oberstar. In the interest of full disclosure, it was my 
language in the 1982 authorization, highway authorization. It 
wasn't my initial idea, it was that of John Rhodes of Arizona, 
later the Minority Leader of the House, which, following a 
fatality involving a neighbor of ours out here in Washington 
whose daughter was killed, rear-ended by a truck, where the 
family pulled well off the traveled roadway. This driver had 
his license revoked in one State, got a license in a second 
State, had it suspended, and then got a third valid driver's 
license in a third State. And the family said, we can't bring 
Kammy back to life--she had been a babysitter for our two 
younger girls--but we want something to be done so that others 
don't have this tragedy visited upon them.
    I found the National Driver Register and crafted language 
to update it, computerize it, and funding for it to expand it. 
It is an extremely valuable tool. You ought to incorporate it. 
We have made it available in aviation for those who want to be 
airline pilots as part of their background check. So 
incorporate that.
    I will withhold further questions at this time.
    Mr. DeFazio. I thank the gentleman.
    I have got just a couple of final observations and 
questions.
    We have anecdotal evidence from some State DOTs that 
because of the concern that this data is going to be used in a 
different manner, after you go through your rulemaking next 
year, other than directing efforts at targeting companies that 
need some focus for safety issues to the ratings, that State 
DOTs are experiencing a tremendous number of appeals of 
citations.
    I would ask anybody, but, Mr. Keppler, has that been 
reported to you?
    Mr. Keppler. Yes, sir, Mr. Chairman. In the pilot States 
there has been an increase in the data challenges that have 
been submitted, and we are anticipating that to increase 
through CSA 2010. And I think it is an important aspect of 
moving forward, ensuring that appropriate resources are 
available to handle all of those and adjudicate them 
appropriately.
    Mr. DeFazio. And how are those appropriate resources going 
to be made available in States that are dramatically slashing 
their budgets?
    Mr. Keppler. That is a very good question, sir. We are 
hopeful working with FMCSA that they have put additional money 
in their budget request. We are hopeful we can help assist the 
States where appropriate with providing additional resources 
through the MCSAP program and through other means to increase 
those resources, sir.
    Mr. DeFazio. Administrator Ferro, I note there was a modest 
increase requested. The budget crystal ball in appropriations 
is very cloudy at the moment. But I wasn't aware that any large 
amount of that was to go to the States to help with problems 
like this.
    Ms. Ferro. This is very much a problem that we identified 
early on in my tenure with the agency, an awareness of the 
DataQ impact, or I should say the process of challenging a 
particular violation on our State partners.
    We have looked within our MCSAP grant process and 
identified whatever leverage we have to allow for additional 
overtime to be used for DataQ processes. We are also developing 
a very clear guideline that we can--as well as from my 
perspective we need time frames so that we can minimize 
frivolous DataQs, but ensure the equity and fairness of the 
DataQ process so that States are, in fact, acknowledging where 
there is a legitimate change that needs to be made, it needs to 
be made. But that workload is certainly a very valid concern 
and one we are attuned to and working with our State partners 
on.
    Mr. DeFazio. Do either of the associations have a comment 
on this phenomenon?
    Mr. Spencer. Obviously we would certainly like to see 
additional Federal funding available, although we know it is 
not likely to happen in the immediate future anyway. But it 
kind of gets down to refocusing your priorities, refocusing, 
channeling your money where you get the largest payback.
    We think CSA 2010 has the potential to do a lot of good. We 
look at other programs, for example, the new entrant safety 
audit that is out there now that is required, that is funded at 
some level, and we saw no justification for a special audit of 
every new entrant when this initiative got off the ground. But 
we still question that in that the logical person would say, 
wait a minute, if we are going to give somebody approval 
authority to go operate across the country, shouldn't we 
already have satisfied any safety concerns we had? So we think 
focusing those kinds of dollars in a more productive way would 
be better.
    Mr. DeFazio. Mr. Klein, any comment?
    Mr. Klein. Mr. Chairman, we support increased funding for 
not only the rollout amongst the States, but also to make sure 
there is an appropriate data challenge process available. We 
think any credible process requires to have the data challenge 
option available, and, if resources are an issue, would support 
additional resources there.
    Mr. DeFazio. I doubt it is going to happen. I am very 
concerned about this phenomenon, how we are going to deal with 
it.
    Mr. Keppler, you reference how CSA 2010 will impact safety 
rating reciprocity and data exchange with Canada and Mexico. I 
guess I would direct both to you and the Administrator, I can 
envision that perhaps we are having meaningful data exchange 
with Canada. I am not aware that we are having any meaningful 
data exchange with Mexico, or that there is any meaningful data 
down there to exchange with us regarding safety. So I would 
like you both to comment on that. Perhaps Administrator Ferro--
well, Mr. Keppler, you raised it. You can go first.
    Mr. Keppler. Thank you, Mr. Chairman.
    Several years ago FMCSA signed an MOU with Canada on 
safety-rating reciprocity. Canada has a different safety-rating 
process to some degree, different things, nuances, than we do 
in the U.S., and the CSA 2010 process obviously is going to 
change the whole rating scheme, how the data is treated, how it 
is handled, and how that impacts on a motor carrier's safety 
fitness determination. So the reason we raised that issue is 
because Canada obviously wants to work collaboratively in that 
process to ensure that there is equitable treatment across the 
border.
    From the Mexico perspective, I do know recently they have 
stepped up their efforts on the enforcement side. For example, 
we do an annual road check program that we did 2 weeks ago, and 
Mexico submitted more data in terms of inspections than they 
have ever done before. So it is helpful.
    Mr. DeFazio. Real inspections? We have a problem here where 
we have probable cause-driven--I mean, generally most things in 
Mexico are bribe-driven. So I am not aware--we have just heard 
horror stories about their enforcement regime down there. I 
don't give it any credibility, if they are sending us data that 
we can verify that data or that data is verifiable.
    They have no meaningful commercial driver's license 
registering, they have no meaningful hours of service 
enforcement--well, they have no hours of service, and they have 
no hours of service enforcement. So what sort of safety data 
are we getting from Mexico about this driver, who doesn't have 
hours of service requirements, was meeting his requirement to 
not have hours of service requirement? Or the one where this 
driver who isn't subjected to drug testing wasn't subjected to 
drug testing? Or this driver who was stopped and paid a bribe? 
What are we talking about here?
    Mr. Keppler. Well, in terms of the data exchange, I am not 
seeing that, because they are exchanging that information at 
the Federal level, so we don't see that on a day-to-day basis.
    Mr. DeFazio. OK. Then let's ask the Administrator what 
meaningful, verifiable and/or fact-checked data we are getting 
out of Mexico where we have actually sent inspectors down there 
to see that these activities are ongoing and are meaningful?
    Ms. Ferro. Well, the exchange exists today on the driver's 
licensing fees. I will say I am very weak on the details with 
regard to this specific question, but I will happily follow up 
for the record. But with regard to anybody traveling in this 
country, any activity in the trade zone area, all of those 
carriers receive violations, inspections and violations, just 
like any other carrier.
    Mr. DeFazio. That is within the U.S.
    Ms. Ferro. And that is part of the rating process. Should 
any of that change such that carriers are operating long haul 
in the United States, any carrier under the old pilot program, 
if you recall, there was a very extensive--and it is required 
by law--on-site review and examination of any carrier that 
could do more than they are doing today.
    So, again, I would like to come back specifically with our 
current activity with regard to any data exchange, if I may, 
for the record, but reinforce that carriers operating in those 
trade zones today will also be rated clearly as part of CSA 
2010.
    Mr. DeFazio. Right. And we would encourage you within that 
20-mile zone to continue those activities robustly. I don't 
think you are going to have to worry about the long haul.
    Then I would reflect, you talked about driver fitness. We 
held a hearing a couple of years ago on drug testing, which was 
rife with extraordinary problems, and also on the physical 
exams, which also had some similar problems in terms of phony 
input data or meaningless data coming in, and I am not aware 
what strides we have made in those areas. I would be interested 
in talking about that. But I would just say unless things have 
changed a lot, I don't think we are having a meaningful 
oversight of those fitness activities, unless we have corrected 
the problems. Hopefully we have. But I would be interested in 
hearing more about that.
    Finally, just on, again, a difference between Mr. Klein and 
Mr. Spencer, but everybody can chip in on this one, because 
FMCSA is proposing that--well, ATA has proposed drivers--if 
drivers who have a bad performance record or violations are 
dismissed, that you get some sort of partial credit for that. 
You might just want to expand on that, Mr. Klein, and we will 
have Mr. Spencer and then the others comment.
    Mr. Klein. Thank you, Mr. Chairman. With regard to that, I 
can give an example of our organization.
    We had a driver who we dismissed this past year who had an 
issue with alcohol in the vehicle and got pulled over, and 
there was alcohol found in the vehicle. We terminated.
    We went back and looked at that situation to say, OK, what 
could we have done differently in the process of hiring, 
training, inspecting that individual, or coaching, to create a 
different outcome so we could have caught that earlier. We did 
the background check. We had the preemployment screening done. 
That individual actually went through a random drug test 2 
years before this incident. And through our processes, we 
couldn't find anything to say we could identify that we had a 
bad apple in our organization any earlier than the time that 
the inspection took place. But with our policies, as soon as 
that was identified, that individual was terminated from 
employment from our organization.
    So therefore, we believe there should be some credit given 
to have a process that allows you to take credit in those 
situations where you make the right business decision. We 
didn't choose to keep that individual on. We chose to terminate 
at that point.
    Mr. DeFazio. Mr. Spencer?
    Mr. Spencer. I think it actually has sort of been the 
history of deregulation was spurn or no longer focus on veteran 
drivers. We are going to search out the new guy. We are going 
to train them or not train them the way we want them. We are 
going to turn them loose and ask the taxpayers to keep an eye 
on the people that we turn loose as drivers.
    That sort of has been the history of MCSAP, the history of 
trucking since deregulation. And, you know, the problem is, 
again, one driver that gets fired, that loses his license, is 
simply replaced with another identical or maybe even less 
trained and less qualified.
    So the problems of drugs and alcohol, obviously trucking is 
going to be one of the least likely professions to have those 
kinds of problems. But you can hire those things. And again, I 
mentioned earlier, by turnover, this constant quench to find 
new people, lower-paid drivers to fill truck seats comes with 
its own set of problems.
    Simply firing somebody that is a problem, that you hired, 
and you asked taxpayers to actually keep an eye on for you and 
do background checks and all those things, somehow or another 
that doesn't rise to the category of a reward to me.
    Mr. DeFazio. Ms. Ferro?
    Ms. Ferro. Chairman DeFazio, this program, CSA 2010, is 
about accountability, it is about compliance, it is about 
safety and crash reduction. So to the extent that a carrier--
that drivers associated with a specific carrier demonstrate 
patterns of unsafe behavior enables us to then focus our look 
at that carrier when we go in to look at them.
    The focus is to get the carrier to say what in our business 
practices is prompting that unsafe behavior. It may be 
practices and pressures within the company itself, dispatch. In 
Mr. Klein's case, clearly they have got a very rigorous 
process. It is an isolated instance. It will be treated as an 
isolated instance. You need an accumulation of violations in a 
particular area for that to actually count against that rating, 
three or more. That would be treated for just what it is.
    This is a process of looking at patterns, using performance 
data, identify patterns, and help that motor carrier identify 
what in their business practices may be driving those patterns.
    In the case where they have drivers that are good drivers, 
but have had a problem or an instance of a problem, they have 
an opportunity to detect, remediate and retain. If it is a 
high-risk driver and a pattern of high-risk driver, they do 
well, and they reward themselves, frankly, and their ratings 
down the road, and their insurance view down the road, and 
their shipper view down the road by taking care of that driver 
appropriately with dismissal.
    So that to us is kind of that reward system, the 
opportunity to measure, and identify, and detect and analyze. 
Again, if it is an isolated instance, it is not going to count 
against the rating. It will be lost in the averaging.
    Mr. DeFazio. Mr. Keppler?
    Mr. Keppler. Yes, Mr. Chairman. I would actually echo 
everything Administrator Ferro said. I think that the thing 
that--Mr. Klein obviously has a very responsible safety 
program. The purpose behind SMS within CSA 2010 is to look for 
patterns. We see anomalies and violations--and I am sure this 
is the exception and not the rule in his company-- it will get 
lost, and it wouldn't negatively affect the long-term safety 
fitness of his company.
    Mr. DeFazio. OK. The bells are ringing. We are summoned to 
cast some trivial votes on some hortatory resolutions. That is 
all we do around here these days.
    Does anybody have anything that they weren't asked and 
wanted to say? I am not encouraging this. Just if there is 
something you really want to say or do, raise your hand.
    OK. If not, I want to thank you all for your time. I think 
this helped open up this process and demystify it a little bit. 
I think it is a work in progress, and I think the Administrator 
recognizes that.
    I want to thank Helena on my staff. I don't usually do 
this, but I was reading her memo on the plane yesterday. And I 
did have to read it twice, but it gave me a much greater 
understanding of the issues and the program, and I recommend it 
to anybody in the audience who wants to try to figure out what 
the heck it is we were talking about here today.
    Anyway, with that, the Committee stands adjourned.
    [Whereupon, at 11:50 a.m., the Subcommittee was adjourned.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


</pre></body></html>
